TT

sume  CCQCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiets contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1021

MICAH JESSOP, ET AL.,
Petitioners,
v.
CITY OF FRESNO, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE AND BRIEF OF THE INSTITUTE FOR JUSTICE AS AMICUS CURIAE SUPPORTING
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 4968 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

wm
GENERAL HOTARY-Stata of Bsbraska Ke L C2. b,
f ie OSE ee Cae deoa Quadra Ke, Qh
Notary Public Affiant 39525
